<html>
<title> - A YEAR-ROUND COLLEGE CALENDAR: ADVANTAGES AND IMPEDIMENTS</title>
<body><pre>[Senate Hearing 108-410]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-410

       A YEAR-ROUND COLLEGE CALENDAR: ADVANTAGES AND IMPEDIMENTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING ADVANTAGES AND IMPEDIMENTS IN RELATION TO A YEAR ROUND 
COLLEGE CALENDAR, FOCUSING ON THE COSTS OF HIGHER EDUCATION, FINANCIAL 
                  AID, PELL GRANTS, AND STAFFORD LOANS

                               __________

                             MARCH 9, 2004

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



92-569              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                   Marguerite Sallee, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                         Tuesday, March 9, 2004

                                                                   Page
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee     1
Trachtenberg, Stephen Joel, President, The George Washington 
  University, Washington, DC; India McKinney, student, Vanderbilt 
  University, Nashville, TN; Michael L. Lomax, President, Dillard 
  University, New Orleans, LA, on behalf of the United Negro 
  College Fund; Virginia S. Hazen, Director of Financial Aid, 
  Dartmouth College, Hanover, NH; and Margaret Heisel, Associate 
  to the Vice President and Executive Director, Admissions and 
  Outreach, University of California Office of the President.....     4

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Stephen Joel Trachtenberg....................................    22
    India McKinney...............................................    24
    Michael L. Lomax.............................................    25
    Virginia S. Hazen............................................    27
    Margaret Heisel..............................................    28
    Thomas A. Babel..............................................    34

                                 (iii)

  

 
       A YEAR-ROUND COLLEGE CALENDAR: ADVANTAGES AND IMPEDIMENTS

                              ----------                              


                         TUESDAY, MARCH 9, 2004

                               U.S. Senate,
             Subcommittee on Children and Families,
of the Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:32 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Alexander, 
chairman of the subcommittee, presiding.
    Present: Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Good morning. This hearing of the 
Health, Education, Labor, and Pensions Committee, our 
Subcommittee on Children and Families, will come to order.
    I want to thank our witnesses for coming. I will introduce 
our witnesses in a few moments. We have Dr. Trachtenberg, who 
is president of the George Washington University; India 
McKinney is a student at Vanderbilt University; Dr. Michael 
Lomax is president of Dillard University in New Orleans; 
Virginia Hazen, director of Financial Aid at Dartmouth; and 
Margaret Heisel from the University of California system.
    What I will do is make a brief opening statement, about 5 
minutes long or so, and then if other Senators come in the 
meantime, I will ask them if they have opening statements. 
After that, what I will ask the witnesses to do is if you would 
summarize your opening statement, taking 5 or 6 minutes, and 
then that will leave us more time for questions and 
conversation about this very interesting subject.
    Last August, Dr. Stephen Trachtenberg, who is president of 
the George Washington University, suggested in a Washington 
Post article that colleges and universities need a year-round 
calendar. He argued that year-round classes would reduce 
competition for housing and classes, create more income for the 
university, and perhaps even lower tuition for students. Dr. 
Trachtenberg said, ``We could actually increase our enrollment 
at George Washington University by at least a thousand 
students, yet have fewer students on campus at any one time.''
    Our purpose today is to hear from Dr. Trachtenberg and from 
others about the year-round calendar and to explore what the 
Federal Government should do, if anything, to encourage it or 
at least not to impede it.
    Specifically, we hope to explore, among other subjects: 
one, whether students ought to be able to use their Pell grants 
for 12 months of study instead of for 9; two, whether students 
should be able to use their full allocation of student loans to 
finish college in 3 years instead of 4; three, whether some 
students who enter higher education for job training but not 
necessarily for a degree should be able to use Pell grants or, 
instead, some other Federal grant or loan--I think of the 
worker who goes to a community college for a semester or two to 
get a skill and then on to a newer and hopefully better job, or 
a teacher in California who already has a degree but needs to 
go back to the university to get skills necessary for a 
teaching certification--four, what effect would year-round 
calendars have on work-study programs; and, five, we want to 
explore whether students should be allowed to use grants and 
loans during a 5th or 6th year of college, or whether those 
funds should be reserved for students moving through their 
courses more rapidly.
    Summer break for work, reflection, and fun has been as much 
a part of the college and university tradition as the cap and 
gown at graduation. Some of our 4-year universities such as 
Dartmouth, from whom we will hear this morning, already have a 
year-round calendar, but most do not. At the same time, the 
fastest-growing segment of higher education, public community 
colleges and for-profit institutions, often operate on what 
they call a 24/7 calendar. In Senator Enzi's hearing on 
workforce skills last week, witnesses agreed that even at many 
4-year institutions, the concept of semester is disappearing.
    Colleges are changing their tradition schedules because 
their customers are increasingly not traditional. The average 
age of the undergraduate student today is 26. Many have jobs. 
Many are married. Many more are women. The cry often heard at 
college commencement these days is, ``Way to go, Mom.''
    Many enroll to learn skills but not necessarily to earn a 
degree. Only 36 percent of students who begin their college 
career at a 4-year institution receive their bachelor's degree 
within 4 years.
    There is much talk these days, both in the country and on 
the floor of the U.S. Senate, about job loss. We may not know 
or at least not be able to agree exactly on how to stop job 
loss, but we do know exactly how to create good new jobs. 
According to the National Academy of Sciences, half of 
America's new jobs since World War II have been created by 
science and technology, much of that at our great research 
universities. Americans have the skills necessary to do those 
jobs largely because we send more students on to higher 
education than in any other country.
    The surest plan for good new jobs in America, then, is 
increased support for two programs we already have: first, 
programs for scientific research; and, second, Federal grants 
and loans that today follow about 60 percent of students to the 
colleges or universities of their choice.
    Higher education is America's secret weapon for job growth. 
This hearing is to make sure we are using our secret weapon 
most efficiently so that it operates with the highest possible 
quality and with the greatest access for the largest possible 
number of qualified students.
    When we conclude this hearing, we will consider whether 
additional action is warranted. Dr. Trachtenberg has suggested 
a demonstration project to encourage and study the effect of 
year-round college calendars. I want to consider a commission 
that would gather accurate information about today's college 
calendar among the more than 6,500 higher education 
institutions in America, consider what the impact would be of a 
year-round calendar, and then recommend to what extent and how 
the Federal Government ought to encourage such a calendar.
    A dozen years ago, as United States Education Secretary, I 
helped to create a similar study of year-round schedules for 
elementary and secondary schools, and that turned out to be 
very useful.
    Senator Alexander. President Stephen Joel Trachtenberg is 
the 15th president of the George Washington University since 
its founding in 1821. He has been at George Washington 
University since 1988 as president all that time. That has to 
be nearly a world record for the modern era of university 
presidents.
    Someone asked me once what is more difficult, being 
Governor, being in the President's Cabinet, or being a 
university president. And I said, ``Obviously, you have never 
been a university president, or you would not ask a stupid 
question like that.''
    [Laughter.]
    Dr. Trachtenberg is one of our most distinguished and 
experienced major university presidents. During the Johnson 
administration, he was Special Assistant to the U.S. Education 
Commissioner. Before that, he was an attorney for the U.S. 
Atomic Energy Commission, and he worked in the United States 
Congress.
    Dr. Trachtenberg, I guess this proves that some people read 
op-eds and some consequences result from making speeches. So we 
appreciate your initiative and your original thinking and your 
leading us to this idea, and we look forward to hearing from 
you today and considering the idea of year-round colleges. 
Thank you for coming.
    Before we begin I have a statement from Senator Kennedy.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    I commend Senator Alexander for convening this hearing as 
our committee prepares to act on the many important issues we 
face in reauthorizing the Higher Education Act--increasing 
teacher quality, the two Federal loan programs, and access to 
college. Today's testimony on year round college continues an 
important discussion on innovative ways to improve graduation 
rates for all students, and I look forward to the views of our 
witnesses.
    It has always been a priority for our committee to enable 
all students to have the opportunity for college and the means 
of support necessary to earn their degree.
    Colleges and universities have operated on a semester 
system since their creation, and although many institutions 
have adjusted their schedule to meet the needs of their 
students, it is still the most common form of higher education.
    Many colleges keep their campuses open during the summer 
months to give students the flexibility to take additional 
courses to lighten their course load during the rest of the 
school year, or to graduate sooner. Many colleges use the 
summer to introduce high school students to college life 
through the TRIO or Gear Up programs. In colleges in 
Massachusetts, during the summer, hundreds of high school 
students take their first college course or attend specialized 
seminars with faculty. These experiences help students gain 
access to college and help others to continue in college.
    Today's discussion can help us understand how to give more 
students the option of attending courses throughout the year. 
Students who are dependent on need-based aid may not be able to 
stretch that aid out for additional courses, unless we create 
new types of aid for such purposes. Many of these students rely 
on summer employment to help pay their tuition, so we need to 
ensure that these innovative opportunities do not force needy 
students into greater debt on student loans.
    Higher education is a major and continuing Federal 
investment--totaling $69 billion in student grants and loans in 
2002. It is also a significant and continuing investment by 
millions of students and their families, who struggle to make 
college a reality for themselves and their children and then 
sacrifice for years to pay back their loans. We need to do all 
we can to see that our investment and their investment is 
achieving the best return possible. Finding ways to help 
students stay in college and complete their degree in as short 
a time as possible should be part of our reauthorization 
agenda, and I look forward to working with my colleagues to do 
so.

STATEMENTS OF STEPHEN JOEL TRACHTENBERG, PRESIDENT, THE GEORGE 
WASHINGTON UNIVERSITY, WASHINGTON, DC; INDIA McKINNEY, STUDENT, 
    VANDERBILT UNIVERSITY, NASHVILLE, TN; MICHAEL L. LOMAX, 
 PRESIDENT, DILLARD UNIVERSITY, NEW ORLEANS, LA, ON BEHALF OF 
 THE UNITED NEGRO COLLEGE FUND; VIRGINIA S. HAZEN, DIRECTOR OF 
  FINANCIAL AID, DARTMOUTH COLLEGE, HANOVER, NH; AND MARGARET 
HEISEL, ASSOCIATE TO THE VICE PRESIDENT AND EXECUTIVE DIRECTOR, 
ADMISSIONS AND OUTREACH, UNIVERSITY OF CALIFORNIA OFFICE OF THE 
                           PRESIDENT

    Mr. Trachtenberg. Senator, thank you for your kind words. I 
am honored to be here. I have always been a great admirer of 
your career and its many chapters. And I look forward to 
following it for many years to come.
    Last week, Mr. Chairman, you gave President Bush a bust of 
his ancestor, James Weir, who fought in the battle of Kings 
Mountain along with an ancestor of yours. And you right called 
that battle one of the ``great stories of the American 
Revolution.''
    We honor our ancestors for their bravery and their courage. 
But we would not engage today with the strategies of 1780.
    In higher education, we are trying to help our Nation 
compete globally and conduct business with the habits of 
colonial times--indeed, with the habits of earlier times. And I 
suggest we cannot do that any longer.
    So I thank you for inviting me to testify. I have submitted 
both a written statement for committee review and copies of an 
important report that we completed last year at the George 
Washington University focusing on this subject.
    My message in these materials is simple: We need to change, 
and in the next few minutes, let me brief describe what has 
happened that makes change necessary, propose a specific change 
that could help keep American universities competitive and more 
cost-effective, and suggest some things that the Federal 
Government might do to nudge such a change along.
    First, what is different? Well, the numbers tell the story. 
In 1952, about 7 percent of men over 25 and 5 percent of women 
had a 4-year degree. Last year, it was about 27 percent of men 
and 23 percent of women. Only 200,000 African Americans had 
college degrees in 1959. Now it is 2.7 million. Graduate and 
professional degrees are more and more the norm, not the 
exception.
    And there is no mystery about what inspires that. The 
latest Census figures show that people with only a high school 
diploma make about $26,000 a year, people with a BA degree 
about $50,000, and people with a graduate degree about $72,000. 
Surely an inspiration for somebody who is thinking about their 
future.
    Meanwhile, universities have taken on roles they never had 
before. We offer more courses because the nature and the shape 
of knowledge have changed. We continue the basic and applied 
research that keeps our Nation in the forefront of innovation 
and assists job creation. We serve communities in new ways, 
sometimes whether we want to or not, like the $14 million in 
uncompensated medical care that George Washington University 
Hospital provided to residents of the District of Columbia last 
year.
    This has made higher education expensive. We have 
diligently cut costs. Faculty and staff salaries at many 
institutions, for example, have either been frozen or increased 
only modestly. But we have had to charge more.
    At the University of Maryland, Senator Mikulski's alma 
mater, tuition increased 18 percent last year. In Senator 
Graham's State, Clemson's tuition went up 19 percent this year. 
Nationally, independent institutions have increased tuition 5.3 
percent a year over the last 5 years.
    So we have to ask ourselves: Is there anything more we can 
do to hold down costs? And the answer is that there are.
    The academic calendar was created to suit an agrarian 
world. It fit that world of 1780, when tending crops and 
looking after livestock were more important than learning how 
to read. To allow students to work on the family farm, schools 
and colleges operated for slightly more than half the year, 
generally two 14-week semesters.
    At a time when fewer than 2 percent of Americans worked in 
agriculture, such a system is hopefully out of date. Is there 
any other business in America that would close facilities for 6 
months while building new ones alongside them which would also 
run half a year? I do not think so.
    But right now, too many colleges are building new campuses 
and buildings, underusing the ones already up. There is a bulge 
in the college population presently that masks this waste of 
resources. And when it disappears, the unfortunate result will 
be all too apparent.
    So I propose moving to a program of full utilization. 
Imagine that instead of two 14-week semesters we had three 
trimesters, with appropriate vacations. Students might be on 
campus for only two of the trimesters. At GW, if we had such a 
scheme, we could increase our enrollment by at least a thousand 
students, and yet have fewer students on campus at any one 
time.
    Think of the advantages: less competition for housing; less 
competition for classes; more income for the university; lower 
tuition for students potentially; less students on the streets, 
ensuring the gratitude of our neighbors and the municipal 
zoning boards; less need for private or government money, which 
could mean less taxes.
    We might even be able to offer another change. A 4-year 
degree should not be sacrosanct. We could offer some degrees in 
3 years rather than 4, saving an enormous amount for students 
and their moms and dads.
    Finally, there is a benefit apparent only to people who see 
what happens every spring as seniors prepare resumes.
    Right now we flood the job market with newly minted 
graduates during the summer when demand is the slackest, and we 
starve it during the rest of the year. We need to spread that 
wealth, and it would be good for the economy if we did so and 
good for those students.
    All of this is possible if we summon the will to change. 
But would it be easy? Well, no, absolutely not. There is always 
a constituency for the way things have always been. Indeed, 
memory is the enemy of change. Still, I am convinced that there 
are ways to achieve such change. To use our institutions more 
fully, it is not necessary for students to attend each and 
every summer. At GW, attending just one summer session in 4 
years would improve our bottom line by $10 to $15 million.
    The details for the moment concern me less than the 
concept. What is the appropriate role for the Federal 
Government in promoting such an idea?
    For example, should students be allowed to use their Pell 
grants and their Stafford loans for 12 months of study rather 
than for just 9 months? That would accommodate demand for 
higher education all year long.
    I would suggest a small appropriation, possibly for a 
commission and a FIPSE competition for demonstrate projects. I 
am convinced that the results would spur many schools to act.
    Let me sum up. We need a year-round calendar like the one 
that everybody else I know uses. We need Federal Government 
programs to accommodate to this change. We need it for the sake 
of the universities and the Nation's economy. We need it for 
the sake of our national preeminence in creating and 
disseminating knowledge. We need it for the sake of the 
communities we serve.
    Thomas Jefferson wrote, ``If a nation expects to be 
ignorant and free, in a State of civilization, it expects what 
never was and never will be.'' And that is still true.
    We honor Jefferson's principles, the ones fought for by 
those volunteers at Kings Mountain. But we best honor the 
principles of their century by making those changes necessary 
for our century. In this Information Age, when we all know 
education is a full-time job, we cannot and should not and must 
not give universities a half-time appointment.
    And now I would be pleased to take any questions. Thank you 
very much.
    Senator Alexander. Thank you, Dr. Trachtenberg.
    [The prepared statement of Mr. Trachtenberg may be found in 
additional material.]
    Senator Alexander. We will move next to Ms. India McKinney, 
who is a senior political science and communications studies 
major at Vanderbilt University in Nashville. India McKinney has 
served in various leadership positions throughout Vanderbilt, 
and she has been vice president of the marching band, various 
duties with the Student Government Association and alumni class 
officer. She is on the debate team. And we are delighted, 
India, that you have taken time to be here today. This must be 
your spring break. Is that right? And I saw a group of 
Vanderbilt students a little earlier who are here in Washington 
on an alternative spring break, living and working with 
homeless people. We welcome your testimony.
    Ms. McKinney. Thank you very much, Mr. Chairman. As you 
mentioned, I am a senior in the College of Arts and Sciences at 
Vanderbilt University.
    My family is originally from Alabama, and we moved to 
Southern California in 1996, where I graduated from Palos 
Verdes Peninsula High School. For mostly personal reasons, I 
only considered and applied to small, private colleges in the 
southeastern part of the United States. I cannot articulate 
what it was about Vanderbilt that stood out, but I realized 
before too much longer in my search for colleges that, though I 
never set foot on campus, Vanderbilt was by far my top choice. 
And so I applied to Vanderbilt as an early-decision candidate.
    My acceptance letter to Vanderbilt came in Early March, and 
in the same envelope with my acceptance letter was my financial 
aid offer from Vanderbilt. I was absolutely thrilled to get 
into my top choice, and I just read the first page, and I 
handed the rest to my parents so they could help me out with 
the financial aid part. My mother looked at the second page 
where they offered the financial package, and she looked at 
that and she looked at me, and she told me that she did not 
think that if this was what Vanderbilt was offering, she did 
not think that they would be able to afford to send me there.
    So I called Vanderbilt. I called the financial aid office. 
I asked them if I could get a merit scholarship, if there was 
any way that I could get an increased loan, an increased grant, 
anything like that. And the financial aid officer that I spoke 
to suggested that I get a job on campus because this was their 
final offer. And though I had applied to Vanderbilt early 
decision, their acceptance letter was not the first one that I 
had received, nor was theirs the best offer financially. So I 
went to bed, and I went to school the next day determined that, 
well, this just was not meant to be, I would be happy somewhere 
else, it would be all right. And I came home from school, and I 
was going to write the letter to Vanderbilt politely declining 
their offer, and my mother met me at the door and she said that 
my father had met with his credit union at work that day and 
they had decided to take a second mortgage on the house because 
they had decided that Vanderbilt was the best place for me to 
be, and so they were willing to make that sacrifice to send me 
to that college.
    The loan package that I received from Vanderbilt was a 
need-based grant from the College of Arts and Science, which is 
not a Pell grant, as well as a subsidized Stafford loan. This 
most recent year I also got an unsubsidized Stafford loan. I 
have had a job on campus every semester so that I can pay for 
all of my personal expenses, including food, and not ask my 
parents for that. My freshman year I worked in the dining hall 
so that I could get for free the dinner plan that all 
Vanderbilt freshmen are required to buy. I have worked with the 
alumni calling center, where I call Vanderbilt alumni and ask 
for donations. I have worked for the marching band, where I 
have been a member for 4 years and vice president for 2 years 
and was very pleased to discover that they ended up paying me 
to do things that I would have done for free. I currently work 
in the Office of Housing and Residential Education where I 
mostly file and sort papers.
    I have spent every summer at home, where the rent is free, 
earning money so that I could return to school in the fall and 
not have to work as hard during the school year to meet my 
credit card bills. My first summer, I worked full-time as a 
hostess at TGI Friday's. The second summer, I interned with my 
local Congresswoman, Jane Harman, and worked at Friday's as a 
waitress on the weekends. Last summer, I worked as an intern in 
Southern California Edison's Legislative and Local Governmental 
Affairs group.
    My concern with a year-round college system and year-round 
financial aid is that rather than providing the opt to allow 
some students to graduate early, year-round aid might result in 
some colleges forcing students to take summer classes and 
graduate early because it looks better statistically. And I 
recognize that some students would welcome the change to 
graduate early and to save that money or to get a head start in 
their career. But, personally, I would not have preferred that 
option. Creating the opportunity for some students to take 
classes in the summer would be beneficial to many students, as 
long as summer classes remain a choice and not an obligation. 
Forcing students to take classes during the summer might deny 
those students to get the opportunity to get summer jobs, 
internships, or undergraduate research grants, which would hurt 
the collegiate system in the long run. I think college is about 
personal exploration as much as it is about learning solid 
facts, and I believe that the space created in the summer is 
invaluable.
    I never took classes in the summer for two additional 
reasons. First, I am a liberal arts major, and most of the 
classes that Vanderbilt offers in the summer are designed for 
science majors either retaking classes or fulfilling their arts 
requirements. Second, and most importantly, I liked my summers 
in the ``real world,'' where I got to use the theories that I 
was learning in school in reality. And though I was often bored 
at home away from my college friends and away from college 
life, I always came back to Nashville in the fall excited to 
start the new year and with a new perspective on what my 
ultimate goals in college should be.
    I would like to emphasize that if year-round college were 
to become the norm, I believe it is both fair and essential for 
the Federal Government to allow for student aid for the year-
round school system for the need-based students who either 
choose or are required to take summer classes.
    And though I never visited Vanderbilt or any other college, 
I know that I made the right choice because I could not have 
had a better 4 years. I will graduate in about 2 months, and I 
know that I am going to have to start paying off all of my 
student loans, but Vanderbilt was most definitely worth it.
    I hope that my comments have helped, and I would be pleased 
to answer any questions, and I thank you for giving me the 
opportunity to testify.
    Senator Alexander. Well, thank you, Ms. McKinney. That was 
eloquently stated, and based on my personal experience, you are 
well on your way to being a United States Senator, because I 
was at Vanderbilt, had three jobs, two scholarships, worked in 
the summers, stayed at home rent-free, and played the 
sousaphone in the marching band because I found you could get 
into basketball games. Nobody would question you if you were 
carrying a sousaphone. [Laughter.] So I am very impressed with 
your background.
    [The prepared statement of Ms. McKinney may be found in 
additional material.]
    Senator Alexander. Dr. Lomax is Dillard University's 7th 
president, appointed in 1997. He has undertaken an ambitious 
repositioning of Dillard as one of the premier small 
undergraduate institutions in the South. Located in New 
Orleans--as I was taught to say when I lived there working with 
one of its board members, Judge Wisdom--Dillard is a private 4-
year undergraduate institution founded in 1935 with roots in 
the mergers of two historically black colleges that date back 
to the 1860s. Increasingly, Dillard graduates are seeking 
advanced degrees at some of the country's finest institutions. 
Dr. Lomax has a distinguished teaching career in Georgia 
colleges and is well known in this country for his leadership 
in higher education. We welcome Dr. Michael Lucius Lomax to the 
hearing and look forward to his testimony.
    Mr. Lomax. Thank you very much, Mr. Chairman, and good 
morning. I appear before you today on behalf of the United 
Negro College Fund, representing 39 private, 4-year 
historically black colleges and universities. As you may know, 
I will assume the presidency of the United Negro College Fund 
on June 1st.
    The College Fund remains steadfast in its commitment to 
enroll, to nurture, and graduate students, some of whom do not 
have the social and educational advantages of other college-
bound populations. Combined, we enroll over 59,000 students in 
primarily liberal arts institutions, many of whom go on to earn 
graduate and professional degrees at America's most prestigious 
universities.
    I am pleased to share with you today UNCF's viewpoints 
about year-round college, and particularly how such an academic 
calendar might benefit UNCF students and college students 
nationwide. The statement that I have submitted for the record 
details at length some of the characteristics about our 
students. The major point to emphasize to the committee is that 
students on UNCF campuses not only qualify in large numbers for 
need-based aid, but also enter college less familiar with the 
environment and with little or no help at home in successfully 
navigating the challenging academic requirements.
    For these reasons, Mr. Chairman, UNCF has recommended that 
Congress establish a three-semester year-round academic 
calendar supported by a three-semester Pell grant award. For 
the record, UNCF wants to be clear that it is proposing a Pell 
grant for a third full academic semester that is equal in 
length to each semester in the traditional two-semester year. 
Each eligible student would qualify for a Pell grant equal in 
dollar amount to the Pell grant awarded for the other two 
semesters.
    In UNCF's opinion, there are clear advantages to year-round 
college for students on UNCF campuses and at all institutions 
of higher education. Two distinct categories of students would 
be affected by providing a three-semester Pell grant: first, 
academically gifted students who wished to accelerate their 
studies and who realistically could complete a baccalaureate 
degree in 3 years; and, second--and this is a very significant 
group for us--students who enter college less well prepared and 
who would benefit from a more intense period of time to pursue 
their baccalaureate degree.
    Students who are less prepared academically may arrive on 
campus requiring developmental course work in addition to the 
core college curriculum. In fact, a February 27, 2004, USA 
Today article, entitled ``High Schools Skip Over Basics in Rush 
to College Classes,'' noted that 53 percent of all students 
entering college take at least one remedial course in order to 
make up their academic deficits from high school.
    The option of a lesser course load that the year-round 
calendar represents is for them an opportunity to stay on plan 
academically and still attain their baccalaureate degree within 
5 years.
    On the other hand, a year-round academic calendar would 
allow more academically motivated students to accelerate their 
studies and graduate earlier. Additionally, when you look at 
those Pell recipients who are less academically prepared and 
those who are more academically motivated, both likely are 
forced to work to pay for college. As a consequence, these 
students may have to forego extracurricular activities because 
of their course of work demands. UNCF hopes that Congress 
agrees that all students, regardless of income, should not have 
to choose between sacrificing their academic plan and pursuing 
extracurricular activities. A year-round college calendar 
better ensures that they have both options.
    Members of the committee, as I have stated previously, UNCF 
students, as well as many other dependent and independent 
students, must work to pay for college. No one who deals with 
these students on a regular basis would be surprised then that 
many come in and out of school as a consequence. A year-round 
calendar, supported by grant aid, undoubtedly enhances 
retention for these students.
    UNCF recognize that not all institutions of higher 
education would want to operate on a year-round calendar. For 
that reason, we also recommend that a three-semester Pell be 
optional. Campuses opting not to offer aid in this manner may 
provide Title IV assistance under the current program 
parameters. Additionally, UNCF understands that comparable 
changes need to be made to the Federal student loan programs, 
whether one offers a year-round calendar or not.
    UNCF does not anticipate that all of its member 
institutions, nor all colleges and universities as a whole, 
would implement a year-round academic program taking advantage 
of a three-semester Pell grant. However, institutions that 
elected to provide year-round instruction would have several 
benefits accrue that could provide economies of scale to 
participating institutions.
    The impact of what I have just shared with the committee is 
significant when one considers the financial consequences not 
only to students, colleges, and universities, but also to the 
country. The longer it takes for students to complete college, 
the longer they remain in the system. Even if, as under the 
UNCF proposal, more students complete college in 5 years, this 
still could represent considerable savings. At a time when 
Congress is so focused on the tight budget facing the Nation, 
we may want to consider how proposals such as the year-round 
academic calendar supported by a three-semester Pell grant 
award recommended by UNCF potentially may reduce some financial 
pressures on an already oversubscribed financial program.
    Mr. Chairman and members of the committee, UNCF member 
institutions recognize that some of their proposals may be 
controversial. Nonetheless, we believe that UNCF's 
recommendations may add to our exploration of the merits of a 
year-round college calendar. We applaud you for undertaking 
this review and look forward to working with you as you attempt 
to improve access to college for all students. And I would just 
like to add a hearty ``Amen'' to Dr. Trachtenberg's points that 
he has made. There are so many economies to the colleges 
themselves to having greater flexibility and to maximize the 
use of our underutilized campuses. At Dillard, with 2,300 
students, introducing just two 6-week summer sessions has 
afforded nearly half of our students the opportunity to come 
back to the campus or to remain on the campus and to undertake 
additional programs during the summer. Evening out the 
opportunities for students to have internships and study-abroad 
programs at other points in the academic calendar because they 
are not losing the option of being in school for two semesters 
I think would be a tremendous boon to the institutions and to 
the students themselves. So thank you for allowing us to 
present these options to you today.
    Senator Alexander. Thank you, Dr. Lomax.
    [The prepared statement of Mr. Lomax may be found in 
additional material.]
    Senator Alexander. Virginia S. Hazen is director of 
Financial Aid at Dartmouth College. She has been there since 
1988, so, Dr. Trachtenberg, you both should know what you are 
talking about in this area. She is responsible for the 
administration of all aspects of Dartmouth's $41 million 
undergraduate financial aid program, including developing and 
implementing policies to ensure equitable distribution of 
financial aid funds. She is responsible for institution-wide 
oversight of compliance with Federal financial aid regulations. 
She is invited not just because of her experience but because 
Dartmouth, I believe, since 1972 has had what we would call a 
year-round calendar. When we were beginning these hearings, the 
senior Senator from New Hampshire, who is chairman of our full 
committee, Judd Gregg, and the very proud graduate of 
Dartmouth, said he wanted to make sure that the Dartmouth story 
was told as part of the hearing. So, Virginia Hazen, we welcome 
you and look forward to hearing the Dartmouth story.
    Ms. Hazen. Thank you, Mr. Chairman. I am pleased to be here 
today to discuss with you the advantages of year-round college 
operation and the potential impediments to establishing such a 
system.
    Dartmouth College implemented a quarter-based year-round 
calendar in 1972. The implementation of the Dartmouth plan, as 
it is now known, allowed the college to expand its student body 
by 10 percent without a corresponding increase in the size of 
its facilities.
    Under the Dartmouth plan, students are expected to attend 
for 12 terms over 4 years. They are required to be enrolled 
fall, winter, and spring of their freshman year, the summer 
between their sophomore and junior year, and fall, winter, and 
spring of their senior year. Beyond those requirements, 
students are free to adjust their calendar to best suit their 
needs. While students can graduate in 3 years, assuming they 
have met the degree requirements and have secured special 
permission, that was not the intent of the Dartmouth plan and 
it seldom occurs. Most Dartmouth graduates take 12 terms to 
complete their degree, or just under 12 terms.
    In addition to the advantage of being able to expand the 
size of the student body, the Dartmouth plan also has allowed 
the college to fully utilize its residential halls and other 
facilities during the summer quarter without having to rely 
extensively on conferences and other outside programs. Also, 
year-round operation has given the Dartmouth faculty more 
flexibility and control in scheduling their research 
activities.
    For our students, the greatest advantage of year-round 
operation is the autonomy it has given them to create their own 
calendars to best meet their personal and professional and 
academic needs. Without disrupting their education, a Dartmouth 
student can participate in international study programs, unpaid 
internships, job opportunities to explore career possibilities, 
community service, and transfer terms at other institutions. 
Since Dartmouth students frequently take their ``vacation'' 
term during the fall, winter, or spring term rather than the 
summer, there are job opportunities and internships open to 
them that are unavailable to students with traditional college 
calendars.
    While the Dartmouth plan has many attractive features, it 
has some challenges. Since facilities are utilized year-round, 
maintenance can be problematic. Base staffing levels are 
required year-round, making many 9-month positions obsolete, 
thereby increasing compensation costs. Down time for planning 
is very limited, and, finally, and perhaps most importantly, 
the funding and administration of financial aid can be 
problematic.
    At Dartmouth a full academic year is three quarters. When 
financial aid recipients enroll for four quarters, they have no 
Federal Pell grant eligibility during their final term. In 
addition, their Federal loan eligibility is frequently 
insufficient to meet their needs. For a plan of year-round 
operation to succeed, these issues must be addressed. While 
Dartmouth is able to replace the Federal Pell grant with 
institutional grant in the final quarter and to supplement 
Federal loans with institutional loans, not all colleges would 
be able to do so. And Dartmouth's solution is not perfect. Our 
loans carry higher interest rates than the Federal loans. They 
cannot be consolidated with the Federal loans. And they do not 
carry the same forgiveness features. In addition, if a student 
borrows both from the Federal programs and from the college, 
they are faced with multiple minimum monthly payments. In 
addition to those problems, outside scholarships frequently are 
unavailable during the summer term. Donors often cannot grasp 
the fact that the summer term is a parity term rather than a 
remedial summer session. And even when summer funding is 
available, additional applications are usually required.
    Administering financial aid within a year-round environment 
would be facilitated if: one, the Federal Pell grant could be 
awarded for every enrolled term; two, if the annual loan limits 
on the Federal loans were lifted, perhaps keeping in place the 
cumulative maximum loans, to address students' increased needs 
during years they enroll for 12 months; three, if the Federal 
Stafford loans could be distributed unevenly over terms to 
address differing costs associated with various programs; and, 
four, if there was an educational efforts beyond that offered 
by individual institutions to help the public understand the 
difference between a parity summer term and a remedial summer 
session.
    Thank you for your attention, and I would be happy to 
answer any additional questions you might have.
    Senator Alexander. Thank you, Ms. Hazen, for being here.
    [The prepared statement of Ms. Hazen may be found in 
additional material.]
    Senator Alexander. Dr. Margaret Heisel is from the 
University of California representing the Office of the 
President of that institution. She has a variety of 
responsibilities there dealing with student affairs and 
educational outreach. The University of California is, if not 
the best, clearly one of the best State universities in the 
country and, therefore, the world, and it also has a reputation 
for excellence as well as a tiered system of admission, and it 
is very large. Dr. Heisel has earned her Ph.D. in Spanish 
language and literature. She has taught at the University of 
New Orleans, Middlebury College, University of the Pacific. She 
has been assistant dean, and now she is with the Office of the 
President of the University of California. Dr. Heisel, thank 
you for joining us today, and we are interested in your 
comments about the Federal Government year-round calendars and 
the University of California.
    Ms. Heisel. Thank you very much, Senator Alexander. I am 
very pleased to be here. I appreciate the opportunity. I just 
want to emphasize to begin that the University of California 
really is the best of the large research universities.
    [Laughter.]
    The university has ten campuses, as you probably know, with 
over 200,000 students, and nearly 50,000 of those students--
about a third of UC's undergraduates--receive Pell grants that 
are valued at $138 million. So the Federal Government has quite 
a large investment in the University of California.
    UC supports year-round enrollment very strongly, primarily 
because of the benefits to students and taxpayers that we have 
found, and my testimony today, like that of my fellow 
witnesses, will focus on ways to increase participation in 
year-round enrollment, particularly for those students who 
depend on Federal financial aid. While year-round enrollment 
does not provide necessarily cost savings to the university, it 
greatly benefits students and families.
    The University of California currently enrolls a higher 
percentage of low-income students in proportion to its overall 
enrollment than any other flagship public university. As an 
institution that is committed, deeply committed to expanding 
access to qualified students, regardless of their ability to 
pay, the university believes Congress can take a leadership 
role in effecting changes that will promote year-round 
enrollment and ensure that access is available to all, not just 
to those students who can afford it.
    Like the rest of the Nation, California is experiencing 
record growth in postsecondary education enrollment. It is a 
phenomenon that in California we call ``Tidal Wave II,'' the 
largest increase in such a period we have ever experienced. Our 
university is expecting an enrollment increase of 43 percent 
between now and 2010, which will be an additional 60,000 
undergraduate students above current levels, an unprecedented 
period of growth for us.
    UC is responding to this growth. We are opening up our 
tenth campus in California's central valley at Merced next 
year. But we are also continually looking for innovative and 
cost-effective ways to address students needs, and one of those 
responses is year-round instruction, we have found.
    Let me stop and say for a second that most of the UC 
campuses operate on a three-quarter basis, or have operated 
that way, rather than a semester basis. The Berkeley campus is 
on a semester basis, but all of the other campuses are on 
quarter systems. So installing a summer quarter is a relatively 
simple and straightforward enterprise.
    Prior to 2001, summer instruction at all UC campuses was 
self-supporting. That meant that students paid fees to cover 
the entire cost of their courses with no additional subsidy 
from the State. Enrollment was purely optional, and financial 
aid was not generally available. But beginning in 2001, the 
State began to provide the university with the same level of 
subsidy for summer enrollment that it spends per student for 
instruction in the regular academic year.
    Year-round enrollment has proven very successful. Student 
demand has been extremely high. In fact, we have nearly doubled 
our summer enrollment since the year 2000, the last year in 
which we had fully self-supported programs, those programs 
without financial aid available. About a third of the students 
at UC took courses in summer 2003, and our campuses are 
beginning to collect data that demonstrate that students are 
graduating more quickly as a result of their summer enrollment.
    Year-round enrollment offers, we believe, students both 
educational and economic advantages, and many have already been 
mentioned by my fellow witnesses this morning, all of which I 
enthusiastically support. But a couple of key benefits that I 
want to mention in addition to accelerating studies so that 
students can move into career employment rather than the kind 
of part-time and temporary employment that they hold during 
their student careers, we have also found savings for students 
substantially, for example, in housing, where a student does 
not need to sublet in the summer, does not need to pay for 
unneeded housing in the summer but can simply remain, since 
they have to sign leases generally for a year, they can take 
courses that overbook because of high enrollment; they can take 
those courses more easily in the summer than they can in the 
academic year. And there are certain courses of study, such as 
intensive summer language study, which operate much more easily 
during a summer term. Also, I agree with Dr. Lomax, the idea of 
preparing for difficult or preliminary course work is easier if 
a student can begin in the summer, especially for transfer 
students and some incoming freshmen.
    The University of California also offers State and 
institutional financial aid to eligible students during their 
summer terms. The fact is, however, that truly needy students 
cannot take advantage of this option without Federal financial 
aid as well.
    The University of California believes that Congress can 
eliminate this barrier with two simple changes.
    First, the university is seeking a year-round Pell grant, 
as has already been mentioned by other witnesses. Currently, 
very needy students who wish to accelerate their time to degree 
by attending school for 12 months rather than 9 exhaust their 
eligibility for Pell grant support during the traditional 
academic year. But within a year-round Pell grant, these 
students would receive an additional $1,350 in the maximum 
Pell--that is assuming that we stay at the current level of 
$4,050--for the remaining quarter of the year. This option 
provides the same dollars per student over the student's entire 
career in college. It just provides the funds sooner by 
allowing them to receive their financial aid in summer 
sessions. While some additional appropriations would be needed 
initially, this change, we believe, is budget-neutral over a 5-
year budget outlook. Current law grants the Secretary of 
Education discretion to provide year-round Pell grants under 
certain conditions, but, unfortunately, the discretion has 
never been used.
    Second, a simple change can be made to the Stafford loan 
programs to facilitate year-round enrollment for eligible 
students. Right now, many student borrowers exhaust their 
annual Federal Stafford loan maximums during the traditional 9-
month academic year. While students are currently eligible to 
begin to use their subsequent year's Stafford loan eligibility 
to attend the additional 3 months of each year, it is 
exceptionally difficult for institutions to administer this 
option, and as a result, it is not available at the University 
of California, nor is it generally available at 4-year public 
or private institutions.
    There would be no cost involved in designating a higher 
annual loan maximum for students engaged in 12-month study 
rather than 9-month. No change in the aggregate or lifetime 
borrowing limit would necessarily be involved, so the Federal 
costs would not increase. This is a statutory change to provide 
administrative relief to schools that operate on a year-round 
schedule. I have submitted a chart for the record that 
illustrates this option very clearly, I think.
    I know that Congress is looking to improve access to higher 
education in the reauthorization of the Higher Education Act, 
and my testimony offers two simple change: year-round Pell 
grants and 12-month annual maximum limits for the Federal 
Stafford loan programs. These recommendations will maximize the 
productivity of our Nation's investment in higher education and 
improve our economic future as well.
    Thank you very much for your time and attention to these 
suggestions for congressional action.
    [The prepared statement of Ms. Heisel may be found in 
additional material.]
    Senator Alexander. Thank you very much, Dr. Heisel, for 
your comments. Why don't we just start with your last comments 
and talk about that a little bit. Several have suggested that 
the two obvious changes that might be made would be the ones 
you said, which would be to allow students who receive Pell 
grants to spend the same amount of dollars but to allow them to 
do it in a more compressed period of time.
    Ms. Heisel. Exactly.
    Senator Alexander. So it would be $4,050, I think is the 
maximum, so today you could only spend that during three 
quarters or two semesters for a 4-year degree, but you would 
have the same amount of money four times that you were 
eligible, but you could spend it in 3 years if you wished.
    Ms. Heisel. Right. As they accelerated their academic 
program, they could also accelerate their Pell grant in 
parallel.
    Senator Alexander. And with student loans, the cap for a 
subsidized loan is $23,500, I believe. That is the amount over 
a 4-year period of time. Is that about right?
    Mr. Lomax. Lifetime maximum.
    Senator Alexander. And if I am about to go to college, I 
may be able to borrow up to $23,500 in that loan, but I could 
not get it all at once. In fact, the smallest amount is in the 
first year, I guess, to discourage wastefulness and because 
students may drop out in the first year, and you can increase 
that as you go along. So basically you are suggesting setting 
up almost a line of credit or an account--I think you said line 
of credit, Dr. Lomax, an account that would permit you to draw 
up to $23,500 even if you were just there for 3 years. That is 
the idea.
    Well, let me ask each of you to comment on those two ideas, 
and while you are thinking about that, let me throw another 
something in at the other end. An increasing number of 
students--maybe it is not increasing. A large number of 
students do not graduate within 4 years. According to the 
figures I have, students who start 4-year institutions who 
receive their bachelor's degree in 4 years, overall it is 36 
percent; at public 4-year schools, 26 percent; private, 54. 
Students who start at 4-year institutions who receive their 
bachelor's degree in 5 years, a total of 57 percent, it is up 
to 57 percent; and 6 years, 63 percent.
    So there are a large number of students who--most students 
do not graduate in 4 years. There are a variety of reasons for 
that. One you mentioned that is in big, growing universities 
which are under financial pressure, classes might not be 
available. Another reason might be that students enjoy five 
football seasons more than four, and there are other good 
reasons to stay at a university.
    And so if we are thinking about making these more flexible 
and focusing the largest amount of available money on students 
who need the most help, should there be some limits at the 
other end? I mean, how long should students have to get a Pell 
grant or to use a student loans--5, 6, or 7 years? Should they 
continue to do that? Or would it be wiser to focus more of that 
on the front end?
    So why don't we start with Dr. Trachtenberg and go right 
down the line, any comments you would have on these two ideas 
about restructuring the way we allow students to spend their 
Pell grants and their subsidized student loans.
    Mr. Trachtenberg. Well, I want to associate myself with the 
remarks of my colleagues here today. I think the counsel you 
have been provided is sound. As to your specific question, 
there are, as you quite rightly point out, Senator, a variety 
of reasons why people take more than the conventional 4 years. 
I do not think most of them are doing it for social reasons, 
that is to say, for that tantalizing 5th year of football. I 
think a lot of it has to do, frankly, with financial challenges 
which oblige them to work while they are in school and it slows 
them down. I think there are also certain academic 
disciplines--for example, engineering, we find at George 
Washington University that obliges students to take a 5th year. 
The academic challenge is simply so profound that it cannot be 
achieved by a certain number of students in the 4 years. Given 
a 5th year, they do fine and get their degrees and go on to 
have perfectly satisfactory careers.
    So I think we need to unpack the reasons that people take 
more than 4 years, but you are quite right that some plausible 
cap could be put on it. I do not think it has to be open-ended 
and eternal.
    Senator Alexander. There is also, I guess--Ms. McKinney 
mentioned this in a way--the co-op program or work-study 
program. There are traditionally companies and students--I 
think of engineering especially--who have students who go to 
school for a while and then get to know the company for a 
while, and then the company helps pay, and they seem to think 
that is a good idea.
    Ms. McKinney, what are your thoughts now that you have 
heard the different comments about the idea of more flexibility 
in the grants and loans?
    Ms. McKinney. I think that in a university and in a 
situation where you could take summer classes, as long as it 
remains an option and not a requirement, I think that would be 
a good option for many students. But, again, especially--I am a 
senior. I am about ready to graduate, and I have been preparing 
my resume to send it out to various employers. And one of the 
things that they emphasize the most is, yes, my degree will be 
from Vanderbilt, which is a very good institution and that, I 
hope, will help me get a job, but even more than that, they 
look at the experience that I have had in the workplace and in 
the workforce. And my concern with restructuring aid is that 
there would need to be consideration not to hurt students and 
universities that do not choose to go to a year-round 
collegiate system, to leave the summer open the way that my 
experience at Vanderbilt has been, as there is a limited 
selection of courses offered over the summer, and so that in a 
way forces students to find something else to do, whether that 
be going abroad or finding a job or an internship. You can get 
undergraduate research grants. You can get internships at law 
firms, with your Congress people, with hospitals, with 
potential employers and things like that. And I think that that 
is a very valuable experience, and I think that is going to 
help you out long-term.
    In a university situation where you offer courses year-
round and you could take other semesters or other quarters off 
to do something similar to that, I think that year-round 
financial aid would be absolutely necessary. It is hard enough 
to go to school and to have a job and to do something outside 
of that extracurricularly, and to sometimes go to sleep, that 
it is absolutely necessary to have the Federal financial aid.
    Senator Alexander. Thank you.
    Dr. Lomax?
    Mr. Lomax. Let me just say a word about who our students 
are. Sixty percent of UNCF students come from families that 
earn $25,000 a year or less. Ninety-two percent of our students 
require some form of Federal financial aid, and 40 percent are 
the first in their families to attend college.
    They do not have the flexibility to pursue their college 
careers unless the Federal Government gives it to them. They 
are so dependent upon Pell grants and loans.
    And I might add that the college experience is a relatively 
new one for them, and they do not necessarily come from 
families that have had tremendous experience in negotiating the 
financial and social and academic challenges of an 
undergraduate college experience.
    I think that giving these young people who are high-
performing but low-income students the opportunity to front-end 
more of their college financial support so that they can spend 
more time on the campus learning academically and socially how 
to negotiate that, spending three semesters their first year, 
spending three semesters their second year, getting those tough 
courses that are often the gatekeepers that will--if they do 
not pass them, they are not going to be able to stay in school, 
getting those programs out of the way, performing well, and 
then in their junior and senior year when they are eligible for 
more competitive scholarships, when they are eligible for 
internships then that can help support them financially, they 
can take a semester off, whether it is--and I think if they are 
not all doing it in the summer and there is more opportunity to 
do it in the spring and the fall, then they can take advantage 
of those other opportunities and enhance their resumes, as Ms. 
McKinney notes they need to do if they are going to not only 
apply for employment but to apply for graduate and professional 
school, which are increasingly looking at what you have done 
beyond the college campus.
    So I think that the proposal for year-round, for the Pell, 
for the changes that Dr. Heisel has suggested with regard to 
the loans, the watch word there is ``flexibility.'' Give us the 
opportunity to make the choices that fit the student rather 
than making the student fit the choices that are available to 
her.
    Senator Alexander. Ms. Hazen?
    Ms. Hazen. I agree with Dr. Lomax. Let me just explain a 
little bit about who the students are at Dartmouth that 
actually come for more than 4 years. They are not coming for 
more than 12 terms. They are coming for--they are spreading 
their education out over more than 4 years. And these are 
students where--I first should say all aid at Dartmouth is 
based on need. So once we have reached what the Federal 
Government says that the parents must pay, there is little more 
that we can do in order to meet that family's need.
    These students that are coming for the 5 years are the ones 
where their parents are having real difficulty making the 
parental contribution for one reason or another. If the program 
were to be such that they were unable to obtain Federal grants 
and loans during their 5th year--and usually it is only one 
term, or maybe two terms in their 5th year--it would be 
defeating the very reason that they basically opted for a 5th 
year, which was to take time off to earn money to help their 
parents meet those extra costs that they had associated with 
college.
    Senator Alexander. But if it were limited to a number of 
terms, if it were limited to 12 terms----
    Ms. Hazen. That would work perfectly.
    Senator Alexander. --would that solve that problem?
    Ms. Hazen. Yes, it would.
    Senator Alexander. So it might be over any number of years.
    Ms. Hazen. Agreed.
    Senator Alexander. Dr. Heisel?
    Ms. Heisel. I would very much agree with what has been said 
by my fellow witnesses up to now. I would emphasize that we 
have not had a problem with either--the University of 
California does not really have a problem with either 
persistence or time to degree. If you look at the field, 
roughly 75 percent of all of our entering undergraduates 
complete 4-year degrees within 4 years. And if you go out to 5 
years, that number rises up to 80 and above.
    We have been very diligent about ensuring that students are 
making academic progress. I think that is one of the reasons 
that those rates are as high as they are. And I think balancing 
this flexibility with holding institutions responsible for 
monitoring academic progress is a way of ensuring that there is 
no abuse of the system.
    Students also taking 5 years are engaged in very productive 
work. The university has a program here in Washington. Many of 
our students go abroad. They study in different parts of the 
U.S. They study in Washington and in Sacramento. They take 
advantage of double-major opportunities. There is a great deal 
more flexibility now in undergraduate programs than I think we 
have seen in previous generations. And so some of that 5-year 
pattern that you see is attributable to that, to very 
productive academic work.
    But on the whole, I think ensuring that there is good 
academic progress is a safeguard against any kind of abuse or 
problem that might arise.
    Senator Alexander. Thank you.
    This has been very helpful. I would like to bring it to a 
conclusion now with an invitation to each of you. As you 
reflect on this, if you would like to send us a letter with any 
additional comments as we work on the Higher Education 
reauthorization bill, we would like to have them.
    I want to see if I can summarize and make sure I have not 
overlooked something here. And I would make this comment, too. 
We have a general picture, it seems to me, where we have this--
you call it a tidal wave--new tidal wave of students who are 
applying to higher education. That should be--that is pretty 
easy to understand, I think, given the way the world is today. 
It is increasingly--as Dr. Lomax said and several of you said, 
Dr. Trachtenberg said, a higher education degree provides the 
skills one needs for the jobs that are available. We have a 
shortage of skilled workers in the United States. And even 
though we have some people who do not have jobs, we have a 
shortage of skilled workers. So that is one phenomenon that we 
have.
    Also, as we look to a period of time when we are 
increasingly challenged in world competition to keep good-
paying jobs in the United States, our best way to do that is to 
continue to have skilled men and women who can perform those 
jobs here. So that is going to create an even longer line at 
our colleges and universities.
    We have at the same time State Governments which are having 
a hard time providing the funding for public institutions that 
they have traditionally provided. I know that in Tennessee, 
when I left the Governor's office in 1987, we were spending 50 
cents of every dollar on education; today it is 40 cents. And 
the reason is because spending for social services and health 
has gone from 15 cents to 31 cents of every dollar. And I am 
convinced that the higher education system in the State has 
carried the brunt of that shortfall of funding.
    Now, the Federal Government has been trying to be as 
generous as it could with Pell grants and with loans to help 
make up the difference. But it will not be able to make up the 
whole difference of what the States have not been able to do. 
So while we always want to be as generous as we can with the 
amount of money available for Pell grants and for student 
loans, I think looking for any way that would make the dollars 
we have go further, both the Federal dollars we have and, as 
several of you have said, the family dollars go further, if it 
is cheaper for Dr. Lomax's students to graduate Dillard in 3 
years than in 4 years because it costs less to live, then that 
option might be available.
    It is still worth remembering that 70 percent of full-time 
undergraduates attend colleges with a sticker price of less 
than $8,000. And when you add a year, you are adding a lot of 
cost.
    So you have given some very good suggestions here, so just 
enumerating your suggestions--and if I overlook them, I hope 
you will add to them. One is we can look at the Pell grant and 
whether that could be able to be spent all year rather than 
during part of the year, maybe limiting it to the same amount 
of money, and maybe a certain number of terms, although we 
would not want to just put an arbitrary year on it because that 
might defeat the purpose for which we have given the Pell grant 
in the first place. The same idea with the subsidized loans, 
even if we have to keep the loans at the same total amount, 
$23,500, we might allow students to spend that money earlier or 
on a more flexible schedule to meet their needs.
    It has been suggested that we might--Dr. Trachtenberg 
suggested that we might have a demonstration program through 
FIPSE that would encourage a few more universities to involve 
the year-round calendar, and at the same time we could gather 
information about what is already going on, study it, and let 
universities change their culture on their own. One of the 
great strengths of American higher education is the autonomy of 
its campuses, and I am very reluctant to see any sort of 
Federal legislation that would interfere with that, in this or 
any other area.
    I also think back to 12 years ago when I was Education 
Secretary and we were having more discussion about year-round 
schools, elementary and secondary schools. We had a commission 
on time and learning that reported after we left and the 
Clinton administration was here, but I thought it was a very 
useful commission. And so perhaps we could consider that, 
primarily for the purpose of identifying what is already going 
on, seeing what we can learn from that.
    Now, that is four things that I gleaned from this. Is there 
any other specific thing that the Federal Government could do 
or stop doing or should consider doing or stop doing that might 
affect year-round calendars that I have overlooked in my 
summary?
    [No response.]
    Senator Alexander. OK. Well, this has been very helpful, 
very timely. I thank you for interrupting your schedules to be 
here, and you can be sure that our full committee will pay 
close attention to your testimony.
    The hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

            Prepared Statement of Stephen Joel Trachtenberg

    Mr. Chairman, I see that last week you gave President Bush a bust 
of his ancestor, James Weir, who fought in the battle of Kings 
Mountain--along with an ancestor of yours. You rightly called that 
Tennessee battle one of the ``great stories of the American 
Revolution.''
    We honor our ancestors for their bravery and courage. But we 
wouldn't fight wars today with the strategies of 1780.
    I'm here today, to tell you that in higher education, we are trying 
to compete globally and conduct our business with the habits of 
colonial times--and earlier. We can't do that any longer.
    So, Senator Alexander, and Senator Kennedy, thank you for inviting 
me to testify. I've submitted both a written statement for your review, 
and copies of a study on the year around university that we completed 
last year at The George Washington University.
    My message in these materials is simple. We need to change. In the 
next few minutes let me briefly: describe what's happened that makes 
change necessary; propose a specific change that could help keep 
American Universities; competitive and cost effective; and suggest some 
things the federal government might do to nudge such a change along.
    First, what's changed?
    Numbers tell that story. For in the last half-century, there has 
been a quiet revolution in the number--and diversity--of Americans who 
want a college degree.
    In 1952, when I started college, about 7% of men over 25--and 5% of 
women--had a four year degree. Last year it was about 27% of men and 
23% of women. Only 200,000 African Americans had college degrees in 
1950. Now it's 2.7 million.
    There's no mystery about why. The latest Census figures show that 
people with only a high school diploma make about $26,000. With a B.A., 
about $50,000. With a graduate degree: $72,000.
    Meanwhile, universities have taken on roles they never had before.
    We must offer courses in more and more disciplines. We are asked to 
continue the basic and applied research that keeps our nation in the 
forefront of innovation and assistjob creation. We're asked to serve 
communities in new ways--like the fourteen million dollars in 
uncompensated medical care GW provided to citizens of the District of 
Columbia last year.
    Thus has higher education become more expensive. Our costs go up 
not because we're greedy, but because what we do outpaces the so-called 
cost of living index. For example, new security precautions and 
additional personnel added after the September 11 attacks drove up our 
expenses and our tuition.
    Independent universities have relatively few sources of revenue. 
All universities compete with other worthy causes for scarce 
philanthropic dollars. Public institutions compete for the tax dollars 
allocated by State legislatures who are also trying to improve health 
care, build roads, and enhance homeland security. Universities raise 
tuition reluctantly because we want to offer educational opportunities 
to everyone who can benefit from them, not only the wealthy. Most 
universities and colleges have endowments insufficient to sustain 
excellence.
    We have diligently cut costs. Faculty and staff salaries at many 
institutions have either been frozen or increased well below the cost 
of living. We've joined consortia to use our combined buying power to 
hold down the cost of commodities. We've outsourced services in order 
to obtain the best value for every dollar.
    But producing a first rate college education stubbornly remains a 
labor-intensive process. We've had to charge more. At the University of 
Maryland, Senator Mikulski's alma mater, tuition increased 18% last 
year. In Senator Edwards' state, Clemson's tuition went up 19% this 
year. Nationally, tuition has increased about 5% a year over the last 
decade.
    Is there anything more we can do to hold down costs?
    There is.
    The academic calendar on which we operate was created to suit an 
agrarian world. It fit the world of 1780, when tending crops and 
looking after livestock were more important than learning to read. To 
allow students to work on the family farm universities operated for 
slightly more than half the year--generally, two 14 week semesters.
    At a time when fewer than 2 percent of Americans work in 
agriculture--when agricultural production is so internationalized that 
we casually buy strawberries in November and corn on the cob in 
February--such a system is hopelessly out of date.
    We need to be careful comparing universities to corporations. But 
when it comes to efficiency, such a comparison is apt.
    Is there a business in America that would close facilities for six 
months while building new ones alongside them that would also run half 
a year?
    I don't think so. But that is what states are pressed to do. They 
are building new campuses and buildings--and underusing the ones 
they've got.
    Right now, such inefficiency is less evident. There is a population 
bulge keeping dormitories full. In ten years, that bulge will 
disappear. And the folly of this trend will be clear on the quads and 
classrooms of almost every campus.
    I suggest moving instead to a program of full utilization.
    Imagine that instead of two 14-week semesters we had three 
trimesters--with appropriate vacations. Students might be on campus for 
only two of the trimesters. At GW, we could increase our enrollment by 
at least a thousand students, yet have fewer students on campus at any 
one time.
    Think of the advantages. Less competition for housing or classes. 
More income for the university. Lower tuition for students. Fewer 
students on the streets--ensuring the gratitude of neighbors and zoning 
boards.
    There are other advantages. We would reduce the need to raise 
either private or federal or state money for as many new facilities. 
That would reduce the tax burden and the tuition burden. A year around 
calendar would enable us to increase the size of our entering classes 
without building new facilities--thus accommodating the growing number 
of students who will seek higher education and preparing for the 
downturn in that number in the subsequent generation.
    Can it be done? Of course. In Chairman Gregg's state, Dartmouth has 
done it for a long time. But Dartmouth is the exception; it should be 
the rule.
    Another benefit can be quantified. Compared to fifty years ago, we 
offer enormous numbers of graduate and professional degrees in the 
United States. Just in science and engineering--which directly affect 
our national security and prosperity--we awarded only about 13,500 
degrees; by 1996 we awarded 95,000. In the early 50s, we awarded about 
6,500 doctoral degrees; by 1997 it was nearly 43,000.
    If we operated all year, we might even be able to offer some 
bachelors degrees in three years rather than four, saving an enormous 
amount for students and families. If a graduate or professional degree 
is now the currency valued by students and rewarded by the economy, 
perhaps the nature of the bachelor's degree can be rethought with a 
view toward awarding a meaningful degree in less time.
    Finally, there are some benefits apparent only to people who see 
what happens every spring, as graduating students prepare resumes.
    We flood the market during the summer, and starve it during the 
rest of the year. We're out of synch with the greatest demand for help 
in the retail sector. We overwhelm research laboratories, congressional 
offices, law firms, lobbying organizations, and friends of our families 
with qualified employees during the season when they're slackest 
because they, too, are on vacation.
    All this could change--if we can summon the will to change.
    Would this be easy?
    Absolutely not. There is always a constituency for the way things 
have always been.
    Still, I am convinced there are ways to achieve such change. To 
utilize our institutions more fully, its not necessary for students to 
attend each summer; attending just one mandatory summer session in four 
years creates new income for our institutions, opportunities to 
increase enrollment without building facilities, and opens up an 
opportunity for universities to generate new and exciting programs 
throughout the year.
    The details, for the moment, concern me less than the idea.
    The Federal Government has an important role in promoting year 
around education.
    For example, if students could use their Pell grants and guaranteed 
loans for twelve months of study rather than for just nine months, we'd 
accomodate demand for higher education all year.
    Stafford loans should have the same rules. Let's say students use 
their limit during the regular nine month academic year--but plan to 
attend the third trimester? Why not give them a loan equal to the fall 
disbursement right away?
    I also suggest a modest appropriation, say $5 million, for a 
commission and a FIPSE competition for demonstration projects. I'm 
certain the results would stimulate many schools to act.
    If we operated on a year around calendar, some students might 
choose to finish school more quickly rather than take off a semester. 
But most will chose to either work or vacation during a winter or 
spring term. For those who want to study or earn credit, universities 
can create vibrant internships, study abroad programs, and other 
educational programs during the fall or spring semester students might 
not be in residence. If they chose to work, they'll find less 
competition for employment.
    Let me sum up.
    We need a year-round university calendar like the one most 
enterprises operate on.
    We need federal government programs to accomodate that probability.
    We need it for the sake of the nation's economy.
    We need it for the sake of our national preeminence in creating and 
disseminating knowledge.
    We need it for the sake of the communities we serve.
    Members of the Committee, universities cannot be separate from 
their societies. They belong to them. They help define them. In this 
Information Age, when we all know education is a full time job, we 
cannot give universities a half-time appointment.
    ``If a nation expects to be ignorant and free, in a state of 
civilization,'' Thomas Jefferson wrote, ``it expects what never was and 
never will be.''
    That's still true.
    We honor Jefferson's principles--the ones fought for by those 
volunteers at Kings Mountain. But we honor the principles of their 
century best--by making those changes necessary for ours.
    And now, I'm happy to take your questions.

                  Prepared Statement of India McKinney

    Good morning Mr. Chairman and Members of the Committee. My name is 
India McKinney, and I am a senior in the College of Arts and Sciences 
at Vanderbilt University, double majoring in Political Science and 
Communication Studies.
    My family is originally from Alabama, though we have lived in 
several states. In 1996, my family moved to Southern California where I 
attended and graduated from a Palos Verdes Peninsula High School. For 
mostly personal reasons, I only considered and applied to small, 
private colleges in the southeastern part of the United States. I 
cannot articulate what it was about Vanderbilt that stood out, but I 
realized before too much longer that Vanderbilt was my top choice for 
college, though I had never set foot on campus. I applied to Vanderbilt 
as an ``Early Decision'' candidate and crossed my fingers.
    My acceptance letter came in early March, in the same envelope as 
my financial aid package. I was absolutely thrilled and after reading 
the first page and glancing at the rest, I handed my mother the 
envelope so that she could help me with the financial aid part. As my 
mother looked at the second page, her eyes widened and she told me 
quietly that if that was the only financial aid Vanderbilt was 
offering, she didn't see how they could afford to send me there. 
Devastated, I called the Vanderbilt Financial Aid office and asked 
about more money, or possible merit scholarships. The woman I talked to 
suggested that I get a job on campus, but told me that the letter I was 
holding was Vanderbilt's final aid offer.
    Though I had applied Early Decision to Vanderbilt, their acceptance 
letter was not the first one that I had received, nor was theirs the 
best offer, financially. So I went to bed that night determined to 
believe that if I could not attend Vanderbilt, then it must not have 
been meant to be and that I could be quite happy at another university. 
So I came home from school the next day resigned to writing a letter 
politely declining Vanderbilt's offer, but my mother met me at the 
door. With tears in her eyes, she told me that my father had met with 
his company's Credit Union and that they had decided to get a second 
mortgage on our house so that they could send me to Vanderbilt. She 
told me they agreed that Vanderbilt was the best place for me to be, 
and they had decided that it was worth spending the money to get the 
best education and the best college experience possible.
    The loan package that I received from Vanderbilt was a Need-Based 
Grant from the College of Arts and Science (not a Pell Grant), as well 
as a subsidized Stafford Loan. This most recent school year, I have 
also taken an unsubsidized Stafford loan. I have also had a job on 
campus every semester, so that I can pay for all of my personal 
expenses, including food, without asking my parents to spend more money 
to send me to college. My freshman year, I worked in the dining hall so 
that I could get for free the dinner plan that all Vanderbilt Freshmen 
are required to buy. I have worked for the alumni calling center, where 
I called Vanderbilt alumni to ask for donations; I worked for the 
marching band, where I was a member and vice president, and was pleased 
to discover that they ended up paying me to do some things I would have 
done for free. I currently work in the Office of Housing and 
Residential Education, where my main task is file and sort papers and 
to run errands on campus.
    I have spent every summer at home, where the rent is free, earning 
money so that I didn't have to work as hard during the rest of the 
school year when time is more constrained. My first summer, I worked 
full time as a hostess at TGI Friday's. The second summer, I interned 
with my local Congresswoman, Jane Harman, and worked at Friday's as a 
waitress on the weekends. Last summer, I worked as an intern in 
Southern California Edison's Legislative and Local Governmental Affairs 
group.
    My concern with year round financial aid is that rather than 
provide the opportunity to allow some students to graduate early, year 
round aid might result in some colleges forcing students to take summer 
classes and graduate early because it looks better statistically. I 
recognize that some students would welcome the chance to graduate 
early, either to save money or to get a head start in a career, but 
personally, I would not have preferred that option. Creating the 
opportunity for some students to take classes in the summer would be 
beneficial to many students, as long as summer classes remain a choice 
and not an obligation. Forcing students to take classes during the 
summer might deny those students the opportunity to get summer jobs, 
internships, or undergraduate research grants, which would hurt the 
collegiate system in the long run. I think that college is about 
personal exploration as much as it is about learning solid facts, and I 
believe that the space created in the summer is invaluable.
    I never took summer classes for two additional reasons. First, I am 
a liberal arts major, and most of the classes Vanderbilt offers in the 
summer are designed for science majors either retaking classes or 
fulfilling their arts requirements. Secondly, I liked my summers in the 
``real world,'' where I got to use the theories I was learning at 
school in ``real'' life. Though I was often bored at home away from my 
college friends, I always came back to Nashville in the fall rested, 
excited to start a new year, and with a new perspective on what my 
ultimate goal in college should be.
    Let me emphasize though: if year round college were to become the 
norm, I believe it would be both fair and essential that Federal 
Student Aid be available throughout the year for need based students 
who either choose or are required to take summer classes.
    Though I never visited Vanderbilt or any other college, I know I 
made the right choice because I could not have had a better four years. 
I will graduate in about two months, and I know that I will have to 
start paying off my loans, but Vanderbilt was definitely worth it. I 
hope that my comments have helped and, I would be pleased to answer any 
questions you might have. I thank you for this opportunity to testify.

                 Prepared Statement of Michael L. Lomax

    Good morning Mr. Chairman and Members of the Committee. I 
appear before you today on behalf of the United Negro College 
Fund (UNCF). UNCF is America's oldest and most successful black 
higher education assistance organization, representing 39, 
private, four-year historically black colleges and universities 
(HBCUs). UNCF has been committed to increasing and improving 
access to college for African Americans since 1944. The 
organization remains steadfast in its commitment to enroll, 
nurture, and graduate students, some of whom do not have the 
social and educational advantages of other college bound 
populations. Combined, we enroll over 59,000 students in 
primarily liberal arts institutions, many of whom go on to earn 
graduate and professional degrees at America's most prestigious 
universities.
    I am pleased to share with you today UNCF's viewpoints 
about year-round college, and particularly how such an academic 
calendar might benefit UNCF students. It is important, as we 
begin this discussion, for you to understand something about 
our students. UNCF students come from a variety of family and 
economic backgrounds. However, more than 60 percent of all UNCF 
students come from families with incomes below $25,000 
(compared with 16 percent of students attending four-year 
colleges nationwide), while 84 percent are from families with 
incomes below $50,000 (compared to 26 percent of students 
attending four-year colleges nationwide). Approximately 92 
percent of UNCF students receive some form of federal financial 
assistance. Forty percent are also the first in their families 
to attend college. UNCF students, then, are not only 
disproportionately represented among aid recipients, but they 
also enter college less familiar with the environment and with 
little or no help (at home) in successfully navigating the 
challenging academic requirements.
    Mr. Chairman, to better serve the needs of its students, 
UNCF has recommended, as part of its Higher Education Act (HEA) 
proposals submitted to Congress last year, that Congress 
establish a three semester, year-round academic calendar 
supported by a three semester Pell Grant award. For the record, 
UNCF wants to be clear that it is proposing a Pell Grant for a 
third, full academic semester that is equal in length to each 
semester in the traditional two semester year. Each eligible 
student would qualify for a Pell Grant equal in dollar amount 
to the Pell Grant awarded for the other two semesters.
    In UNCF's opinion, there are clear advantages to year-round 
college for students on UNCF campuses and at all institutions 
of higher education. Two distinct categories of students would 
be affected by providing a three semester Pell Grant: First, 
academically gifted students who wish to accelerate their 
studies and who realistically could complete a baccalaureate 
degree in three years; and Second, students who enter college 
less well-prepared and who would benefit from a more intense 
period of time to pursue their baccalaureate degree.
    Year-round college allows students, especially Pell-
eligible students, to pursue their baccalaureate degree in a 
more intense and focused manner. Guaranteed year-round grant 
aid allows students to really commit to their studies, without 
working so many hours and without assuming an overwhelming loan 
debt burden. Many of these same students are less prepared 
academically. Upon arriving on campus, they may be required to 
take developmental coursework in addition to the core college 
curricula. In fact, a February 27, 2004, USA Today article, 
entitled High Schools Skip Over Basics in Rush to College 
Classes, noted that 53 percent of all students entering college 
take at least one remedial course in order to make up their 
academic deficits from high school.
    Countless numbers of these students initially would benefit 
from a reduced course load, which an extended academic year 
could provide. The option of a lesser course load that the 
year-round calendar represents is, for them, an opportunity to 
stay on plan academically and still attain their baccalaureate 
degree within 5 years. On the other hand, a year-round academic 
calendar would allow more academically motivated students to 
accelerate their studies and graduate earlier.
    Additionally, when you look at those Pell recipients who 
are less academically prepared and those who are more 
academically motivated, both likely are forced to work to pay 
for college. As a consequence, these students may have to 
forego extra curricular activities because of their course and 
work demands. In contrast, many financially privileged students 
have the opportunity to participate in whatever pursuits 
outside of the classroom they desire while in college, 
sustained with the knowledge that they have the fiscal 
resources to take classes in the summer and still stay on plan. 
UNCF hopes that Congress agrees that we should want to do all 
we can to ensure that all students, regardless of income, are 
able to enjoy some of these same extra curricular college 
experiences.
    Members of the Committee, as I have stated previously, UNCF 
students, as well as many other dependent and independent 
students, must work to pay for college. Working more hours, or 
for that matter taking on increased loan debt, creates an 
almost insurmountable barrier to successfully completing 
college. No one who deals with these students on a regular 
basis would be surprised that many come in and out of school as 
a consequence. A year-round calendar, supported by grant aid, 
undoubtedly enhances retention for these students.
    UNCF recognizes that not all institutions of higher 
education would want to operate on a year-round calendar. For 
that reason, we also recommend that a three semester Pell be 
optional. Campuses opting not to offer aid in this manner may 
provide Title IV assistance under the current program 
parameters. Additionally, UNCF understands that comparable 
changes need to be made to the Federal student loan programs, 
whether one offers a year-round calendar or not.
    UNCF does not anticipate that all of its member 
institutions, nor colleges and universities as a whole, would 
implement a year-round academic program taking advantage of a 
three semester Pell Grant. However, institutions that elected 
to provide year-round instruction would have several benefits 
accrue to them--including a steady flow of revenue and a 
seamless registration process--that could provide economies of 
scale to participating institutions. Since campus facilities 
generally are available for operational purposes during the 
traditional summer recess, a year-round academic calendar would 
need to make allowances for necessary repairs and maintenance. 
Finally, some accommodation may have to be made with existing 
faculty and staff employment contracts.
    Mr. Chairman, the impact of what I have just shared with 
the Committee is significant when one considers the financial 
consequences not only to students, colleges and universities, 
but also to this country. The longer it takes for students to 
complete college, the longer they remain in the system. The 
most recent data from the Department of Education, National 
Center for Education Statistics indicates that, at the end of 
four years, 35.8 percent of all students who entered college in 
the fall of 1995 took four (4) years to complete a 
baccalaureate degree. At the end of five years, for the same 
cohort, 57.1 percent of all who entered in the fall of 1995 had 
earned their BA degree. At the end of six years, the percentage 
was 62.7. Furthermore, an additional 14.2 percent of students 
still were enrolled after year six (6) without a degree. Even 
if, as under the UNCF proposal, more students complete college 
in five (5) years, this still could represent considerable 
savings. At a time when Congress is so focused on the tight 
budget facing the nation, we may want to consider how 
proposals--such as the year-round academic calendar supported 
by a three semester Pell Grant award--recommended by UNCF 
potentially may reduce some financial pressures on an already 
oversubscribed financial aid program.
    Mr. Chairman and Members of the Committee, UNCF member 
institutions recognize that some of their proposals may be 
controversial. Nonetheless, we believe that UNCF's 
recommendations may add to our exploration of the merits of a 
year-round college calendar. We applaud you for undertaking 
this review and look forward to working with you as you attempt 
to improve access to college for all students.

                Prepared Statement of Virginia S. Hazen

    Mr. Chairman and Members of the Committee: I am pleased to be here 
today to discuss with you the advantages of year round college 
operation and the potential impediments to establishing such a system.
    Dartmouth College implemented a quarter-based year round calendar 
in the fall of 1972. The implementation of year round operation allowed 
the College to expand its student body by ten percent without 
significantly expanding its facilities. Over the years the plan has 
evolved to address changes in the curriculum and the lack of continuity 
students felt they had in their relationships.
    Today students are expected to enroll for twelve terms over four 
years and are required to be in residence during the fall, winter and 
spring quarters of their freshman and senior years and the summer 
between their sophomore and junior years. Beyond those requirements, 
students have the flexibility to arrange their attendance to best meet 
their needs. While students can graduate in three years if they have 
met the academic degree requirements and have secured special 
permission, this was not the intent of the year round plan and seldom 
occurs. The average Dartmouth student graduates in slightly fewer than 
twelve terms.
    As mentioned above, one advantage to the College of Dartmouth's 
plan of year round operation is that it has allowed the College to 
increase the size of its student body without a corresponding expansion 
in facilities. It has also allowed the College to fully utilize its 
residence halls and other facilities during the summer without having 
to rely extensively on conferences and other outside programs. Finally, 
year round operation has given the Dartmouth faculty more flexibility 
and control in scheduling their research activities.
    For our students, the greatest advantage of year round operation is 
the autonomy it gives them to create their own calendars to fit their 
academic, personal and professional needs. Without disrupting their 
education, Dartmouth students are able to participate in international 
study programs (60 percent of Dartmouth students study overseas, an 
important component of a liberal arts education in our ever changing 
world), unpaid internships, job opportunities to explore career 
possibilities, community service, and transfer terms at other 
institutions. Since Dartmouth students frequently take their 
``vacation'' term during the fall, winter or spring rather than during 
the summer, there are job and internship opportunities open to them 
that are unavailable to students with traditional college calendars. 
Another advantage of the Dartmouth Plan is that it forces students out 
of their social comfort zones. As friends begin exploring different 
activities, their calendars rarely mesh, leading them to develop 
different relationships.
    While Dartmouth's year round operation plan has many attractive 
features, it has some challenges. Since facilities are fully utilized 
year round, maintenance can be problematic. Base staffing levels are 
required year round, making most nine-month positions obsolete and 
increasing compensation costs. Down time for planning is limited, and 
activities that do not normally overlap at other institutions 
frequently do under year round operation introducing a layer of 
complexity that would not otherwise exist. Finally, and perhaps most 
importantly, financial aid funding and administration can be 
problematic.
    At Dartmouth a full academic year is three quarters. When financial 
aid recipients opt to enroll for four quarters, they have no Federal 
Pell Grant eligibility during their final term. In addition, their 
Federal loan eligibility is frequently insufficient to meet their 
needs. For a plan of year round operation to succeed, these issues must 
be addressed. While Dartmouth is able to replace the Federal Pell 
Grants in the final quarter with institutional grants and to supplement 
Federal loans with institutional loans, not all colleges are. However, 
Dartmouth's solution is not perfect. Dartmouth loans carry higher 
interest rates than Federal loans; they cannot be consolidated with 
Federal loans; and they do not have the same forgiveness features. 
Students borrowing from both the Federal programs and the College have 
multiple minimum monthly payments. In addition to these problems, 
outside scholarships are frequently unavailable during the summer term. 
Donors often cannot grasp that the summer term is a parity term versus 
a remedial term. Even when summer funding is available, an additional 
application is frequently required.
    Administering financial aid within a year round environment would 
be facilitated if: 1) the Federal Pell Grant could be awarded for all 
enrolled terms; 2) annual loan maximums were lifted (perhaps keeping 
the cumulative maximums in place) to address students' increased needs 
during years they were enrolled for twelve months; 3) Federal Stafford 
loans could be distributed unevenly over terms to address differing 
costs associated with various programs; and 4) there was an educational 
effort beyond that offered by individual institutions to help the 
public understand the difference between a remedial summer session and 
a parity summer term.
    I have appreciated the opportunity to speak to you and hope my 
remarks will be helpful as you consider issues of capacity and access.

                 Prepared Statement of Margaret Heisel

    Mr. Chairman and Members of the Committee: Good morning. My name is 
Margaret Heisel and I am the Associate to the Vice President and 
Executive Director of Admissions and Outreach for the University of 
California Office of the President (UCOP). The University of California 
includes 10 campuses, with over 201,000 students and more than 155,000 
faculty and staff. During the 2002-2003 academic year, 48,432 
undergraduate students, or nearly a third of the UC's 150,000 
undergraduates, received Pell Grants valued at $138 million dollars.
    I have been asked to testify on the advantages and impediments of 
year-round enrollment, from the perspective of the University of 
California, the nation's largest public research institution of higher 
education. The University of California supports year-round enrollment, 
primarily because of the benefits to students and taxpayers. While 
year-round enrollment does not provide cost savings to the University, 
it offers clear overall advantages in terms of increased capacity, 
cost-effectiveness, academic continuity, retention and persistence 
rates, and the like. Year-round enrollment truly benefits students and 
their families.
    My testimony today will also focus on the impediments to full and 
equitable participation in year-round enrollment, particularly for 
students who depend on federal financial aid. The University of 
California currently enrolls a higher percentage of low-income students 
(measured in terms of Pell Grant recipients), in proportion to its 
overall enrollment, than any other flagship public university. As an 
institution that is committed to expanding access to qualified students 
regardless of their ability to pay, the University believes Congress 
can take a leadership role in effecting changes that will promote year-
round enrollment and ensure that access is available to all, not just 
those who can afford it.
    I will explain these recommendations in more detail, but briefly we 
believe Congress can direct the Secretary of Education to implement 
existing statutory authority, as described in 34 CFR, Title IV, Part A, 
Subpart 1, Sec. 401(b)(6) to allow Pell Grants to be awarded to 
qualified low-income students for yearround study.
    In addition, the University believes Congress should enact 
statutory changes to the Stafford Loan Program to ease current 
administrative burdens that make it extremely difficult for schools to 
offer loans on a year-round schedule. This would effectively raise the 
annual maximum loan limits for year-round students, but would not 
increase the cost to the taxpayers.

                           RECORD ENROLLMENTS

    Like the rest of the nation, California is experiencing record 
growth in postsecondary education enrollment, in a phenomenon referred 
to in our state as ``Tidal Wave II.'' In order to accommodate the large 
increase in the number of young people who will be college-aged over 
the next several years, California has made changes in its higher 
education policies. The University of California has made changes, too, 
to address this student surge, which will lead to an expected increase 
of 43 percent during the decade from 2000 to 2010, which is an 
additional 60,000 undergraduate students above current levels.

              YEAR-ROUND ENROLLMENT BENEFITS THE TAXPAYER

    The tenth campus of the University of California, at Merced, is 
scheduled to open to undergraduates in fall 2005 and the California 
State University has opened three new campuses in the last decade in an 
attempt to meet the demands of California's residents. However, states 
cannot continually build additional campuses and the independent 
college sector cannot meet the enrollment demand, so year-round 
instruction has been adopted to maximize public investment in 
postsecondary education.
    Prior to 2001, summer instruction at all UC campuses was self-
supporting, as it is at most public universities, meaning that students 
paid fees to cover the entire cost of their courses with no additional 
funding from the state. Enrollment was optional and financial aid was 
not generally available. In response to its enrollment challenges, 
California has identified an efficiency, which could reduce facility 
costs and move students through their programs more quickly, thus 
making room for more students. Beginning in 2001, the state provided 
the University with the same level of subsidy for summer enrollment 
that it spends per student for instruction in the regular academic 
year.
    Year-round enrollment has proven very successful and student demand 
for summer instruction has been high. In fact, enrollment has nearly 
doubled since the summer of 2000, the last year of fully self-supported 
programs. About a third of the students at UC took courses in summer 
2003, and one of our campuses UCLA-has collected data demonstrating 
that students are graduating more quickly as a result of their summer 
enrollment.

Year-round enrollment benefits the student:
    Year-round enrollment offers students both educational and economic 
advantages, including:
    Accelerating study and graduating sooner so they can seek career 
employment or proceed to graduate or professional school sooner
    Maintaining housing near campus rather than needlessly paying 
summer rent or finding new housing each fall term
    Completing academic requirements during summer, and allowing more 
flexible course options during the traditional academic terms
    Taking courses that are overbooked in the regular academic year due 
to rising enrollments
    Concentrating on certain courses that require intensive study, such 
as languages
    Preparing for difficult or preliminary coursework (particularly 
incoming freshmen and transfer students)
    Enrolling more easily in study-abroad or internship courses
    Combining work and study more easily than in the regular academic 
year.

Barriers to year-round enrollment:
    The University of California has taken steps to expand access for 
year-round enrollment to all students who wish to pursue it. This 
includes continuing state and institutional aid to eligible students 
during their summer terms. The fact is, however, that truly needy 
students cannot take advantage of this option without federal financial 
aid as well. Without a Pell Grant, low-income students will not be able 
to participate as will their wealthier counterparts. In addition, many 
other students are denied this option because it is more difficult to 
obtain student loans for the summer terms.
    The University of California believes that Congress can and should 
eliminate these two barriers, and Congress can do so without additional 
cost to the taxpayer. I will outline two possible ways. Attached to my 
statement, and submitted for the record, are illustrations of the 
effects of these changes.

                               PELL GRANT

    The University of California is seeking a year-round Pell Grant. 
Currently, very needy students who wish to accelerate their time-to-
degree by attending school for 12 months rather than 9, have exhausted 
their eligibility for Pell grant support during the traditional 
academic year. With a year-round Pell Grant, these students would 
receive an additional $1350 in the maximum Pell (assuming the current 
level of $4,050) for the remaining quarter of the year. This option 
provides the same dollars per student over the student's career in 
college, it just provides the funds sooner by allowing them to receive 
their financial aid in the summer session. While some additional 
appropriations would be needed initially, this change is budget neutral 
over a 5-year budget outlook.
    Current law grants the Secretary of Education discretion to provide 
two Pell Grants within one calendar year under certain conditions. 
Unfortunately, this discretion has never been used. A report of the 
projected cost patterns and administrative feasibility of a year-round 
Pell Grant program was written, but it made inaccurate assumptions 
about how the program would have to be implemented and therefore, it 
incorrectly estimated that any such undertaking would be prohibitively 
expensive. The University of California proposes that in the 
reauthorization of the Higher Education Act, Congress require the 
Secretary to implement a limited pilot program, which we believe could 
be cost-neutral, if viewed on a five-year federal budget window.

                             STAFFORD LOANS

    The University of California supports increased borrowing limits 
for undergraduate and graduate students, along with other changes we 
would like to see in reauthorization, to update the student loan 
programs and better meet students' needs. However, aside from that, a 
simple change can be made to the Stafford loan programs to facilitate 
year-round enrollment for eligible students.
    Right now, many student borrowers exhaust their annual Federal 
Stafford loan maximums during the traditional nine-month academic year. 
While students are currently eligible to begin to use their subsequent 
year's Stafford Loan eligibility to attend the additional three months 
of each year, it is exceptionally difficult for institutions to 
administer this option and as a result, it is not available at the 
University of California, nor generally at most four-year, public or 
private institutions.
    There would be no cost involved in designating a higher ANNUAL loan 
maximum for students engaged in 12-month, rather than 9-month academic 
schedule. No change to the aggregate, or lifetime, limit would be 
involved, so the federal costs will not increase. This is a statutory 
change to provide administrative relief to schools that operate on a 
year round schedule. Attached is a chart that illustrates this option.

                               CONCLUSION

    Congress is looking to improve access to higher education, in the 
reauthorization of the Higher Education Act, and this testimony offers 
two simple changes: year-round Pell Grants and 12-month annual maximum 
limits for the Federal Stafford Loan programs. These recommendations 
will enhance our nation's investment in higher education and improve 
our economic future as well.
    Thank you very much for your time and attention to these 
suggestions for Congressional action.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Prepared Statement of Thomas A. Babel

    Mr. Chairman, and Members of the Committee: My name is Thomas Babel 
and I am vice president of Student Finance for DeVry University, which 
operates over 65 locations in 20 States, and Canada. It is my pleasure 
to present testimony to you regarding the year-round academic calendar. 
I speak to you today on behalf of our more than 52,000 students who are 
enrolled in programs at the associate, bachelors, and masters degree 
level. DeVry's mission is to provide high-quality, career-oriented 
undergraduate and graduate programs in technology, business and 
management. A DeVry education is designed to provide economic 
opportunity for its graduates by providing them with the knowledge to 
navigate careers at the intersection of business, technology and the 
growing health care field.
    The United States is at a critical juncture, as jobs in the 21st 
century require education beyond a high school diploma. As a Nation, we 
must provide a greater opportunity for future generations to educate 
themselves so that they are competitive in the knowledge economy. This 
testimony is limited to a statement of our firmly held belief that 
every citizen should have equal access to funds that support the 
postsecondary education that best meets his or her educational 
objectives. We believe that Pell Grants should be available throughout 
the year to meet the varying needs of today's college students.
    In recent years the number of non-traditional students entering or 
re-entering higher education has exploded. Non-traditional students now 
make up 73 percent of students attending higher education. The baby 
boom echo now entering college is stressing institutional capacity and 
financial assistance resources. In addition, the increase in first 
generation college students, who are increasingly members of minority 
groups, creates additional strain on the Federal student aid programs. 
The need for a more efficient use of Pell Grants is needed to ensure 
that needy students have an opportunity to achieve their educational 
goals.

                     THE ACADEMIC CALENDAR AT DEVRY

    Unlike most academic institutions, DeVry University operates on a 
year-round, three-academic semester basis providing students attending 
full-time the ability to complete their bachelor's degree in 3 years or 
less. For example our 2003-2004 academic year began with a summer 
semester on July 7, 2003 that ended on October 6, 2003. Our fall 
semester began on October 27, 2003 and ended on February 29, 2004. The 
spring semester began on March 1, 2004 and will conclude on June 20, 
2004. While the academic calendar at DeVry is more intense and requires 
a level of commitment that some may regard as atypical, we believe it 
serves the best interests of the highly motivated student attending at 
an accelerated pace and students who benefit from the rigor of 
uninterrupted study as well as students who may proceed at the more 
traditional pace.
    DeVry University and other institutions of higher education are 
presently constrained in their efforts to provide Federal Pell Grants 
to eligible students by two factors. First, the failure of the 
Secretary of Education to exercise his discretionary authority under 
Section 401(b)(6)(A) to allow ``a student to receive 2 Pell Grants 
during a single award year, . . .'' Second, insufficient Federal 
funding from the Congress to support two Pell awards in a single 
academic year.

                 YEAR ROUND STUDY BENEFITS THE STUDENT

    Because of DeVry's year-round class schedule, DeVry students can 
earn their bachelor's degree more quickly and, therefore, enter the 
workforce sooner. This means that they start earning a salary more 
quickly than those students enrolled at traditional institutions. See 
Table 1 for example.
    The Center for Higher Education Policy Analysis at the University 
of Southern California recently wrote, ``Even when factoring in the 
tuition costs, which tend to be above the tuition prices of comparable 
public institutions, jobs students find after graduation tend to pay 
reasonably well. Thus the return on investment for the average student 
in a for-profit program in higher education is greater than a similar 
return for the average bachelor's degree graduate from a traditional 
institution--about 28 percent versus 17 percent.''

           YEAR ROUND STUDY IMPROVES RETENTION AND GRADUATION

    The DeVry University experience indicates that persistence and 
graduation is enhanced through year round attendance for non-
traditional students. A non-traditional student at DeVry is older, has 
family responsibilities and may work full-time. Our 2002 Fall 
Graduation Rate survey of the 1995 first-time full-time student cohort 
shows that year round enrollment increases the likelihood that non-
traditional students progress to degree when they can do so without 
interruption, including summers. The lack of year round Pell funding 
acts as a barrier for non-traditional students who are heavily reliant 
on student financial assistance. These students graduate with a higher 
debt burden because they have been saddled with a disproportionate 
amount of student loans.
    Providing Pell Grants throughout the year would benefit all 
students, including those gifted students attending traditional 
colleges, non-traditional students who are trying to complete their 
education while working full time, and low and middle income students 
at traditional institutions, who experience financial and pre-college 
preparation barriers to academic persistence and success. With a year 
round Pell Grant, gifted students could continue their studies and 
graduate in 3 years, while more academically average students could 
complete their degree in 4 years, thus reducing the cost of student 
loan subsidies and grants to the Federal Government.
    The longer students are in school, the more costly it is for 
students and taxpayers. Currently, the Pell Grant program provides 
grant awards twice a year--on the typical two-semester schedule. This 
results in a needy student who is motivated to attend classes year 
round to take on additional loan debt to meet their financial 
obligations.

                           OUR RECOMMENDATION

    DeVry fully understands the budgetary consequences of adding a 
second Pell Grant award during a single academic year. A maximum award 
recipient currently would qualify for an award of $4050 in fiscal year 
2005. If a third semester Pell award were implemented, this amount 
would increase to $6075. During the current Higher Education Act 
reauthorization, DeVry recommends that Congress authorize a three-
semester Pell Grant demonstration program--including 20 to 25 
baccalaureate institutions of higher education representing a diverse 
cross section of all such institutions.

Table 1

    Tuition shown as a debt and salary as income. Based on the average 
salary for a DeVry graduate in Business Administration for 2002, and 
assumes there is no raise for year 2 in the job.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    [Whereupon, at 10:40 a.m., the subcommittee was adjourned.]


</pre></body></html>
